OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/AFGHANISTAN’S
POWER SECTOR ACTIVITIES
UNDER ITS AFGHANISTAN
INFRASTRUCTURE
REHABILITATION PROGRAM
AUDIT REPORT NO. 5-306-10-002-P
November 10, 2009




MANILA, PHILIPPINES 

Office of Inspector General


November 10, 2009

MEMORANDUM

TO:       	          USAID/Afghanistan Mission Director, William M. Frej

FROM: 	              Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:	            Audit of USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan
                     Infrastructure Rehabilitation Program (Audit Report No. 5-306-10-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft audit report and included the comments in their entirety
in appendix II.

The audit report contains eight recommendations to assist the mission in improving various
aspects of the program. On the basis of information provided by the mission in response to the
draft report, we determined that final actions have been taken on recommendations 2, 3, 5, 6,
and 8. In addition, management decisions have been reached on recommendations 1, 4, and 7.
A determination of final action will be made by the Audit Performance and Compliance Division
upon completion of the planned corrective actions.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

Is USAID/Afghanistan achieving its main goal of improving the availability of electrical
power to Kabul and the southern provinces of Helmand and Kandahar, through power
sector activities under the Afghanistan Infrastructure Rehabilitation Program?

     Construction of 105-Megawatt Power
     Plant for Kabul Is Behind Schedule............................................................................. 7 


     Host Government May Not Be Able
     to Meet Its Commitment to
     Provide Fuel to Operate
     the Kabul Power Plant .............................................................................................. 13

     Kajakai Project
     Is Behind Schedule .................................................................................................. 16

     Contractor Overbilling of
     $2.1 Million Needs to Be
     Recovered ................................................................................................................ 20

Evaluation of Management Comments ...................................................................... 22 


Appendix I—Scope and Methodology......................................................................... 23 


Appendix II—Management Comments....................................................................... 25 

SUMMARY OF RESULTS

Providing electrical power to the Afghan population is crucial to Afghanistan’s
development. As a key to political stability, sufficient, reliable electrical power is
especially important for both the capital city of Kabul as well as for the southern
agricultural provinces of Helmand and Kandahar (see page 3).

To improve the availability of electricity in these areas, USAID/Afghanistan awarded two
major task orders under its Afghanistan Infrastructure Rehabilitation Program to the
Louis Berger Inc./Black and Veatch Special Projects Corp. Joint Venture (the
contractor).

   •	 One task order, awarded in July 2007, was to build a diesel-powered electricity-
      generating plant that would provide 105 megawatts of additional power to
      Kabul—most of which was to be provided in time for the 2008–2009 winter
      season. This plant had a budget of $261.8 million and was to be completed by
      April 2009 (see pages 3 and 12).

   •	 The other task order, awarded in January 2007, was for the completion of work
      begun under an earlier USAID project at the Kajakai Dam in Helmand Province.
      The objective of this task order was to increase capacity of the dam’s power plant
      by 35 megawatts (to a total of 51.5 megawatts) by June 2008 (see pages 3 and
      16).

As of April 30, 2009, the combined ceiling price for these two task orders was
$305.5 million, and USAID/Afghanistan had obligated $290.8 million and expended
$249.6 million for the two projects (see page 3).

The Office of Inspector General conducted this audit as part of its fiscal year 2009 audit
plan to determine whether USAID/Afghanistan was achieving its main goal for these
power sector activities (see page 4). Together, these two activities were expected to
deliver 140 megawatts of additional electrical power to two strategically important areas
of Afghanistan (see page 3).

The audit concluded that, because of construction delays, the mission had not achieved
its goal of providing increased reliable power to these two areas within the planned
timeframes (see page 5).      For the Kabul power plant, the delays were caused by an
initial inability to obtain adequate title to land for the power plant; an ambiguous
statement of work resulting in inadequate planning and implementation; subcontractor
performance problems; lack of mission onsite quality assurance; and problems in
clearing equipment and material through customs (see page 7). For the Kajakai Dam
project, deteriorating security in southern Afghanistan and inconsistent contractor
performance contributed to the delay on that project (see page 16).

By the end of audit field work, on May 13, 2009, the mission-funded projects had
completed construction of generators with the ability to produce only 12 megawatts of
power out of the original goal of 140 megawatts—and this increase in power had not
actually been delivered to the Afghan population (see page 5). As a result, the
economic benefits anticipated for Kabul and the southern provinces of Helmand and


                                                                                        1
Kandahar are not being realized (see pages 12 and 19). Additionally, the contractor
estimated that cost overruns attributable to the delays will amount to $39 million in order
to complete the Kabul power plant by December 31, 2009 (see page 11). As for the
Kajakai Dam project, the original subcontractor left after its personnel received
kidnapping threats, and the project cannot be completed until a new subcontractor is
selected. The mission will have to continue paying the fixed costs of securing and
maintaining the facility until work on the plant can be resumed. These fixed costs
amount to an estimated $1 million per month, even though none of the 35 extra
megawatts of power has been delivered (see pages 16 and 19).

In addition, the audit found that the host government may not be able to afford to operate
the Kabul power plant once it is completed. Specifically, the host government may not
be able to meet its commitment to pay for diesel fuel to operate the plant because of the
rising cost of diesel fuel and the government’s inability to collect revenue for the
generated electricity. Further complicating operation of the power plant is the
configuration of the Kabul transmission system, which does not allow for the use of other
power sources at certain times of the year when those power sources are lower in cost
(see page 13).

Although the mission has not succeeded in providing the electrical power in accordance
with its original schedule, the mission has experienced some successes. With regard to
the Kabul power plant, seven engineering interns had completed training designed to
help maintain the plant, and the transmission line from the plant to the main power grid
had been completed and tested (see page 5). With regard to the Kajakai Dam power
plant, some equipment and parts that were too large to be moved by air had been kept
in storage since June 2006, and the mission coordinated with the International Security
Assistance Force to move them via road to the dam to restart the project (see page 6).

However, with regard to subcontractor performance on the Kabul power plant, the audit
found that the contractor had charged USAID for subcontractor costs that the contractor
had not paid the subcontractor. The contractor had not paid these costs because of
disputes and questionable claims in subcontractor invoices. The total amount the
contractor received from USAID for these questionable costs (including contractor
overhead, fixed fees, and imputed interest) amounted to an overbilling of USAID by
$2.1 million (see page 21).

The audit made eight recommendations, which include advising USAID/Afghanistan to
develop implementation plans that address the critical tasks that must be accomplished
to complete both projects successfully (see pages 13 and 19), develop a comprehensive
sustainability plan for the Kabul power plant (see page 15), and recover approximately
$2.1 million overbilled by the Kabul power plant contractor (see page 21).

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final actions have been taken on recommendations 2,
3, 5, 6, and 8 while management decisions have been reached on recommendations 1,
4, and 7 (see page 22). The mission’s written comments on the draft report are included in
their entirety, without attachments, as appendix II to this report (see page 25).




                                                                                         2
BACKGROUND

The utilities sector in Afghanistan is among the least developed sectors in the economy.
Only about 15 percent of the population has access to electricity. Most of the country’s
domestically produced electricity is generated by 11 hydroelectric plants. A small, gas-
fired power plant near Mazar-e-Sharif is partially operational and produces less than 30
megawatts. Some additional electricity is supplied to villages along border areas by
Afghanistan’s neighboring countries, including Turkmenistan, Uzbekistan, Tajikistan, and
Iran. Providing electrical power to Afghans is crucial to the development of Afghanistan
and key to its political stability.

To promote political stability, providing sufficient electrical power has been important for
both the capital city of Kabul as well as for the agricultural provinces of Helmand and
Kandahar. The Governments of Afghanistan and the United States became increasingly
concerned that Afghanistan’s North East Power System might not be able to provide
sufficient power to Kabul by the winter of 2008–2009. Furthermore, the Kajakai Dam
hydroelectric power plant has been considered a vital component of the South East
Power System in Afghanistan, which provides electricity primarily to the provinces of
Helmand and Kandahar—the agricultural breadbaskets of the country.

In an effort to assist the Afghan Government and to make electricity more available
within Kabul and within the southern provinces of Helmand and Kandahar,
USAID/Afghanistan awarded two task orders under its Afghanistan Infrastructure
Rehabilitation Program to Louis Berger Inc./Black and Veatch Special Projects Corp.
Joint Venture. One task order (task order 9) was awarded in July 2007,1 with an
objective to build a diesel-powered electricity generating plant that would provide 105
megawatts of additional generating capacity in Kabul by the 2008–2009 winter season.
This task order had a completion date of April 2009. The other task order (task order 2),
awarded in January 2007 for the completion of work at the Kajakai Dam in Helmand
Province, included refurbishment of an existing turbine, installation of a new turbine, and
various supporting services. The objective of this task order was to increase capacity of
the dam by 35 megawatts (to a total of 51.5 megawatts) by an estimated completion
date of June 30, 2008. These two projects were to deliver a total of 140 megawatts of
additional electrical power to two strategically important areas of Afghanistan.

As of April 30, 2009, the combined ceiling price for these two task orders (including
$2.8 million for related activities, such as demining and building a perimeter wall,
specified under another task order) was $305.5 million.              By that date,
USAID/Afghanistan had obligated $290.8 million and expended $249.6 million for the
two projects.




1
 A definitive contract issued in July 2007 for task order 9 superseded the letter contract initially issued in
May 2007.


                                                                                                            3
AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2009 annual audit plan to answer the following question:

•	 Is USAID/Afghanistan achieving its main goal of improving the availability of
   electrical power to Kabul and the southern provinces of Helmand and Kandahar,
   through power sector activities under the Afghanistan Infrastructure Rehabilitation
   Program?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    4
AUDIT FINDINGS

The mission did not achieve its goal of providing increased available power within the
planned timeframes. Of the original goal of 140 megawatts, the mission-funded projects
were able to deliver only 12 megawatts of power. As a result, the economic benefits
anticipated from having a consistent and stable power supply for the city of Kabul and for
the southern provinces of Helmand and Kandahar have not been realized. The table
below summarizes the delivery goals and actual megawatts delivered by task order.

         Table 1. Power Delivery Goals and Actual Delivery as of April 2009

                               Megawatts        Milestone      Actual          Actual
          Task Order            Delivery        Delivery      Megawatts       Delivery
                                 Goals           Dates        Delivered         Date
 Kajakai Dam power plant
                                    35          06/2008             0           N/A
 (Task order 2)
 Kabul 105-megawatt plant
 (Task order 9)                     70          12/2008           12          4/2009


                                    35          04/2009             0           N/A


 Subtotal                          105                            12


 Total                             140                            12



As of May 13, 2009, when audit field work ended, the mission-funded projects were able
to deliver only 12 megawatts of power, far less than the original goal of 140 megawatts.
Moreover, this modest increase in power had not actually been delivered by the new
Kabul power plant to the city’s population. By that date only 3 of 18 planned generators
had been installed at the plant, 2 of which could generate the 12 megawatts of power.
The third generator installed at the plant—which the project had expected to generate
5.8 megawatts—had yet to undergo startup and testing activities. As for the Kajakai
Dam project, none of the 35 extra megawatts of power had been delivered to the local
population as of May 13, 2009.

Although the mission-funded projects have not succeeded in providing the electrical
production in accordance with its original schedule, USAID/Afghanistan has experienced
some successes under each task order. With regard to the 105-megawatt plant, the
mission has funded ongoing training, and to date seven engineering interns, three
mechanical and four civil, have been trained to maintain the plant. The interns perform
tasks that include maintaining a detailed material control and inventory of equipment,
monitoring civil installation, performing materials testing, preparing daily construction
reports, and interpreting technical drawings. Also, the transmission line from the power
plant to the main power grid has been completed and tested. With regard to the


                                                                                         5
activities under the task order for the Kajakai power plant, parts that weighed
approximately 200 tons had been in storage since June 2006 because they could not be
moved by air. The mission coordinated with the International Security Assistance Force
to deliver the parts by road, in a large military convoy—a delivery that restarted the
stalled project.




                  The Kajakai Dam power house in Helmand Province.
                 (Photo by the Office of Inspector General, May 2009.)

Although these successes contributed to advancing both projects, the audit nonetheless
identified the following issues that the mission needs to address to further the results
and impact of the project:

   •	 The delay in the construction of the Kabul 105-megawatt power plant
   •	 The host government’s ability to meet its commitment to provide fuel to operate
      the Kabul power plant
   •	 The delay in the Kajakai turbine renovations
   •	 The recovery of $2.1 million in contractor overbilling




                                                                                      6
Construction of 105-Megawatt
Power Plant for Kabul Is Behind
Schedule
 Summary. The contract with the Louis Berger Group, Inc./Black and Veatch Special
 Projects Corp. Joint Venture specified that the power plant would be ready to provide
 70 megawatts of power by the end of December 2008, with an additional 35
 megawatts to be provided by April 2009. However, because of construction delays, at
 the end of April 2009 only 12 megawatts of power were available to add to the power
 grid. The delays resulted from various causes—some of which were beyond the
 mission’s control—including (1) an inability to obtain adequate title to land for
 construction, (2) an ambiguous statement of work resulting in inadequate planning
 and implementation, (3) a delay in subcontractor award and mobilization, (4)
 subcontractor performance problems, (5) a lack of mission onsite quality assurance,
 (6) inconsistent communication between the contractor and the mission, (7) delays in
 getting timely approvals from the contracting officer, and (8) transportation problems.
 As a result, costs are estimated to increase by $39 million, and economic benefits
 from the added power are not being realized.

According to the contract, Louis Berger Group, Inc./Black and Veatch Special Projects
Corp. Joint Venture was expected to complete two of three diesel power generation
blocks (blocks A and B) by the end of December 2008. These two power blocks—
consisting of six generators per block—should have been ready to provide 70
megawatts of power to the Kabul power grid when completed by that date. The third
block (block C) should have been completed by the end of April 2009, to provide an
additional 35 megawatts of power. In all, the three blocks were expected to provide 105
megawatts of electricity.

Because of construction delays described below, the contractor did not meet the
established milestone dates. At the time of the audit, the contractor estimated that it
would be able to deliver only the initially promised 70 megawatts of electricity from
blocks A and B by the end of September 2009—9 months behind schedule. The
remaining 35 megawatts from block C are anticipated to be delivered by December
2009. However, as of the end of April 2009, only block A was substantially complete—
85 percent complete with two of six generators available for producing approximately 12
megawatts of electricity.

The delays in construction resulted from issues such as (1) an inability to obtain
adequate title to land for construction, (2) an ambiguous statement of work resulting in
inadequate planning and implementation, (3) a delay in a key subcontractor award and
mobilization, (4) subcontractor performance problems, (5) a lack of mission onsite quality
assurance, (6) inconsistent communication between the contractor and the mission, (7)
delays in getting timely approvals from the contracting officer, and (8) transportation
problems. Each issue is described in more detail below.

•	 Land Issues. The project was delayed in part because USAID/Afghanistan did not
   obtain a commitment of land from the host government prior to the obligation of
   funds, a land ownership issue that took almost a year to resolve. The mission




                                                                                        7
    initially awarded a letter contract2 for task order 9, with an effective date of May
    2007, even though it did not actually receive a formal commitment for the land from
    the Ministry of Energy and Water until August 2007—3 months after the effective
    date of the letter contract. The mission worked with the ministry for several months,
    trying to identify an appropriate tract of land. Several parcels were considered but
    ultimately rejected, either because the land was already promised to another donor
    or the site was inappropriate for construction. Compounding the delay, once work
    had begun, a local tribe told the contractor in February 2008 that the tribe owned the
    land. The ministry was contacted to resolve the issue, and the contractor had to stop
    work during April 2008, while negotiations were taking place. It was not until the end
    of April, after ownership issues were resolved, that the contractor could continue
    work at the site.

•	 Ambiguous Statement of Work. Under the pressure of political urgency, the
   mission wrote a vaguely worded statement of work. Mission officials commented
   that they had been under extreme political pressure to deliver a specified amount of
   additional power before the Afghan elections in the winter of 2008–2009.3
   Specifically, the original statement of work was not comprehensive and did not
   require specific deliverables with concrete delivery dates. For example, although the
   statement of work required the prime contractor to obtain construction schedules
   from each of its subcontractors, it was not required to provide a consolidated
   schedule. Furthermore, the contract contained no consequences for failing to
   provide power by the specified milestone dates. These contract flaws were
   compounded by the inexperience of the original mission personnel tasked with
   preparing the statement of work.

    As a result, the planning process and ultimately the implementation of the project
    were fragmented. The contractor commented that, under normal circumstances, it
    would have submitted a comprehensive schedule, detailing the required resources
    along with a list of critical tasks that must be implemented on time to prevent delays
    in the project. However, to complete the project by the required date, the project was
    carried out as a series of separate tasks specified by the mission. For example, the
    initial award included only the purchase of equipment to be manufactured, such as
    the 18 generators and supporting equipment, and an initial search for potential
    bidders for other critical tasks, such as the transmission line to the main power grid.
    Modifications were made subsequently, as the project progressed. At no point,
    however, did the mission develop a comprehensive construction schedule or require
    one from the contractor.

    Furthermore, to expedite project tasks, the mission approved quick-response task
    orders under another task order (task order 3) to move certain projects forward, such
    as demining the land and building a security perimeter wall. Quick-response task
    orders were incorporated into task order 3 as a means of approving low-cost tasks.
    However, these individual quick-response task orders were never integrated into an

2
  A mutually binding legal instrument where the principal purpose is the acquisition, by purchase, 

lease, or barter, of property or services for the direct benefit or use of the Federal Government.

In this instance the letter contract was used to begin work on the facility until a permanent 

contract could be negotiated. 

3
  Subsequently postponed to August 2009. 




                                                                                                8
   overall plan or included in the original award. As a result, there was no
   comprehensive schedule against which to assess progress.




                 One of the generator blocks under construction in Kabul.
                  (Photo by the Office of Inspector General, April 2009.)


   In retrospect the mission agreed that much more time should have been dedicated to
   preparing the statement of work and to the planning process. However, given the
   political pressures involved, the mission commented that it did what it could to keep
   the project moving toward the required completion date. Moreover, the mission said
   that a lack of staffing has contributed to its problems. Contracting officers and their
   technical representatives carry a heavy load and constantly work on multiple
   portfolios and projects. The mission is in the process of hiring additional technical
   and support staff to address the lack of staffing.

   The mission also commented that it had developed a statement-of-work template
   and training to assist the technical offices. This training is meant to supplement the
   initial training provided to contracting officer’s technical representatives in
   Washington, DC. However, this local training is not required, nor is the use of the
   template.

•	 Delays in Subcontract Award and Mobilization. Numerous delays occurred in the
   award and mobilization of the subcontract. The contractor subcontracted the
   construction of the power plant to Symbion Power, a U.S.-based firm. Symbion
   Power stated that it was told that the award of the subcontract would occur in
   April 2008 and that its original schedules assumed mobilization in May 2008.
   However, the final subcontract was not signed until early June 2008, putting the
   subcontractor a month behind schedule from the start.

   Symbion Power’s mobilization encountered delays as well.          The contractor was


                                                                                        9
    expected to provide Symbion Power with certain work site infrastructure by the end
    of June 2008, including office and residential space as well as site preparation.
    However, when Symbion Power mobilized, it discovered that these items had not
    been completed. Symbion Power stated that the site preparation was not completed
    until approximately the end of August 2008 and that its offices were not completed
    until mid-September 2008.

•	 Subcontractor Performance Problems. Additionally, the contractor experienced
   performance issues with its subcontractors that contributed to the delays. For
   example, another subcontractor, Caterpillar—the firm that was manufacturing the 18
   generators—notified the contractor that a quality control problem would delay
   delivery of the generators for blocks B and C. The delivery schedule for block B
   slipped by 88 days and for block C by 15 days.

    Symbion Power also experienced delays resulting from performance issues.
    Symbion had trouble obtaining qualified local labor, for example, and was slow to
    respond to the contractor’s request to use more foreign labor. Symbion Power finally
    obtained foreign labor through its subcontractor; however, the subcontractor brought
    in the foreign workers under tourist visas instead of work visas. As a result, when
    the workers were notified that they could no longer work under the tourist visas, they
    left the country, and Symbion Power’s difficulty in finding qualified labor continued.
    The mission commented that, had Symbion Power notified the mission through the
    contractor that visas were a problem, the mission could have assisted in obtaining
    the required work visas. The mission also commented that in the future it will require
    contractors to perform a labor market analysis to determine whether sufficient local
    labor exists. If sufficient labor does not exist, the mission will incorporate capacity
    training of local staff as part of future task orders. However, because the mission
    has no written procedure in place to require this type of analysis, there is no
    assurance that this type of analysis will be done in the future.

    In addition, Symbion Power commented that it had difficulty getting its local staff to
    work night shifts and during holidays. It stated that overtime pay and other
    incentives were offered but not accepted. Symbion Power also stated that Ramadan
    and the Eid holiday4 set back the schedule drastically. The holiday season resulted
    in shortened work shifts and delayed the program by approximately 5 weeks.

    Although Symbion Power claimed that it had 500 people working on its site, the
    mission and the contractor contended that additional skilled laborers were required.
    At the time of audit fieldwork, the contractor was working with Symbion Power on a
    recovery schedule.5

•	 Lack of Onsite Quality Assurance. In normal mission practice, quality assurance
   oversight of construction activities is conducted onsite, either by independently
   contracted engineers or the mission’s local staff. However, USAID/Afghanistan does
   not have this practice documented in its procedures, and in this case the mission did
   not have an onsite presence. The mission stated that it was not sure why an onsite
   quality assurance engineer had not been assigned to the project, but the mission

4
  Muslims observe fasting from sunrise to sunset during the month of Ramadan. The month-long fast is 

concluded with a 3-day festival known as Eid or Eid ul-Fitr. 

5
  A recovery schedule documents how the subcontractor will attempt to catch up on its construction. 



                                                                                                 10
   agreed that one should have been assigned. Had an onsite engineer been assigned
   to the project, the mission would have been aware of problems sooner. The mission
   is in the process of hiring individuals to monitor work for the remainder of the project.

•	 Inconsistent Communication Between the Mission and Contractor.
   USAID/Afghanistan contended that it was unable to assist the contractor in moving
   the project forward because the contractor did not convey critical information to the
   mission promptly enough to be useful. Specifically, a contractor’s internal report,
   dated December 2008 and detailing problems in delivering the completed facility on
   time, was not provided until mid-January. Further, delays in customs clearance as
   well as the inability to obtain work visas were not communicated promptly to the
   mission. The mission contended that, had it known of all the problems the contractor
   was experiencing, it could have intervened sooner to help resolve the problems. To
   correct these communication issues, the mission now meets with the contractor
   weekly.

•	 Lack of Timely Approvals. The contractor contended that approval for critical tasks
   required for a fast-track project like this was delayed at the mission. For example,
   the contractor had prepared a detailed analysis of the various transportation options
   available to transport the generators, which were being built by Caterpillar in
   Germany. This analysis involved a cost assessment as well as an assessment of
   security risks in transporting the generators overland through insecure areas.
   According to the mission, the contractor originally had received approval from
   USAID’s Regional Acquisition Office in Bangkok but then was required to provide
   additional justification to the contracting officer in Kabul before the contract
   modification was signed for transporting the generators from Germany to Kabul. The
   mission agrees that all parties to the process should have been involved from the
   beginning in deciding how to transport the generators and that this particular
   approval took longer than expected. This one contract modification took 2 months to
   approve—a critical delay for a fast-track project.

•	 Transportation Delays. The project also suffered from a series of transportation
   delays. Specifically, there were problems with clearing items through customs at
   border crossings and with finding drivers willing to transport items from the Pakistani
   border to Kabul. Also, items such as transmission towers and raw materials were
   delayed at border crossings.

The effect of these problems can be measured in terms of additional costs to the
contract, including incremental operating costs and delay claim costs; additional costs
resulting from the lack of a more modern and efficient plant to replace existing inefficient
plants; and costs resulting from a delay in the economic benefit of delivering more stable
and consistent electrical power to the residents of Kabul.

The delays described above will raise the overall cost of construction higher than
expected, amounting to $39 million in additional costs. The original budget for
completion of the facility included items from task order 9 as well as quick-response
tasks included in task order 3 to keep the project moving. The total estimated budget for
both task orders was almost $262 million. The contractor estimates that the cost of
completing the facility by December 31, 2009, will be nearly $301 million. That estimate
includes anticipated delay claims plus the incremental costs for running the facility, such
as security and camp support costs. Although the full costs of the delay claims are


                                                                                         11
unknown at this point, the contractor commented that it had taken a conservative
approach and assumed a worst-case scenario to develop its estimates for these claims.
Budgeted costs and the cost overrun are summarized below.

  Table 2. Budgeted Costs and Cost Overruns for the Kabul 105-Megawatt Plant


                                                                              Amount
 Task Order                           Description
                                                                            ($millions)

 Task order 9    Budget for Kabul 105-megawatt plant                         $ 259.0
                 Budget for “quick-response support” for demining,
 Task order 3                                                                     2.8
                 perimeter wall, etc.
                 Total budgeted costs                                          261.8
                 Contractor estimate to complete                               300.8
                 Cost overruns attributable to delays                           39.0

In addition, the delay in completing this power plant has forced Kabul to rely on a
significantly older power plant that consumes more fuel. Kabul receives some of its
power from an old diesel-generator plant constructed in the 1970s. A mission analysis
shows that the use of this inefficient plant costs an estimated $100,000 daily in extra
fuel.

Finally, the purpose of building the 105-megawatt plant was to provide more reliable
power over a greater number of hours per day. The expected impact upon the citizens
of Kabul was increased economic growth and a better quality of life overall. The portion
of the Kabul power grid that the new plant will feed into now supports approximately
255,000 residential customers. Existing power production capabilities are meeting only
about 42 percent of the demand required. The addition of the 105 megawatts from the
completed facility will meet an estimated 70 percent of demand in Kabul and is expected
to have a positive economic impact of approximately $640 million in its first full year of
operation, according to a study funded by USAID. Besides delaying the longer-term
economic impact of the program, the delay in the completion of the facility will forestall
any immediate increase in the number of hours per day of electric power available to
Kabul residents.

Although some causes of the delay in the program were beyond the mission’s control,
and the mission is addressing other causes already, we are making the following
recommendations.

   Recommendation 1. We recommend that USAID/Afghanistan require that its
   training on statement-of-work preparation be provided to all new contracting
   officer’s technical representatives.

   Recommendation 2.        We recommend that USAID/Afghanistan develop
   procedures, such as the use of quality control checklists, to ensure that
   statements of work include such critical elements as clear deliverables with
   specified due dates.

   Recommendation 3.         We recommend that USAID/Afghanistan establish
   procedures requiring that a labor skills assessment be performed by a contractor,


                                                                                        12
   either upon award of a construction contract or upon the award of a task order
   under the contract. The assessment would include, as appropriate but not
   limited to, the availability of qualified local labor, vocational training needed to
   cultivate local labor, and plans to coordinate with the mission to obtain
   appropriate visas for non-Afghan labor.

   Recommendation 4. We recommend that USAID/Afghanistan establish written
   procedures to ensure that all significant construction projects have onsite quality
   assurance engineers.

   Recommendation 5. We recommend that the mission develop an overall
   implementation plan for the Kabul power plant project that incorporates updated
   construction schedules for the contractor and subcontractor, identifies delays in
   critical tasks, and establishes steps to keep the project on track.


Host Government May Not Be Able
to Meet Its Commitment to
Provide Fuel to Operate
the Kabul Power Plant

 Summary. Sustainability is a core element of USAID program design guidance.
 However, it is unlikely that the host government can afford to pay for the fuel to
 operate the facility, for reasons such as increases in fuel prices and the inability to
 collect on utility bills. In addition, the current configuration of the northern Kabul
 transmission system does not allow for use of cheaper electricity alternatives at
 certain times of the year, although these alternatives could ultimately reduce overall
 fuel costs. Without fuel to run the facility, the plant will not be able to produce
 sufficient electricity to meet consumer demands. As a result, businesses will almost
 certainly suffer, and the anticipated economic gains from having this reliable power
 source will not be achieved.


Sustainability is a core element of USAID program design, as shown in the Agency’s
Strategic Plan Checklist, which requires strategic teams within the mission to address
two questions:
   (1) Is the achievement of sustainability for these institutions and processes realistic
       and within the planned timeframe for the completion of USAID’s assistance to a
       specific strategic objective and/or a country’s graduation from USAID
       assistance?
   (2) Will sustainability plans be provided for key institutions and processes that will be
       necessary beyond the timeframe of the USAID strategy?

Furthermore, section 611(e) of the Foreign Assistance Act of 1961, as amended and
codified in 22 U.S.C. 2361, provides that whenever certain types of funds are proposed
to be used for a capital assistance project exceeding $1 million, the head of agency must
take into consideration the mission director’s certification as to the capability of the
country to effectively maintain and utilize the project.


                                                                                          13
The mission lacks sufficient assurance that the host government can continue operating
the 105-megawatt facility once it is completed, despite the government’s commitment to
do so. While Ministry of Energy and Water employees are being trained in the day-to-
day operations of the power plant, the mission lacks sufficient assurance that the host
government will provide the fuel needed to run the facility, especially during such peak
times as the winter and in view of the host government’s previous failure to meet its
commitment to provide fuel for this project.

At the start of the project, the mission received a commitment from the Afghan
Government to budget and provide for the fuel required to operate the facility. The
mission director also certified that the host country had the capability to effectively
maintain and utilize the project.

In October 2008, however, the host government notified the mission that it would be
unable to purchase fuel for the new facility when it was completed and requested
financial assistance to purchase fuel for the upcoming winter when the plant was to have
been completed. In response, the mission reduced its contribution to the Afghanistan
Reconstruction Trust Fund, a trust fund managed by the World Bank, by $28 million and
used these funds to purchase fuel. However, since the project was not completed on
time, the $28 million was used to purchase fuel for an existing plant. Approximately
$15.6 million for fuel was procured out of the $28 million, and in April 2009 the host
government requested that the remaining funds be reserved for the next winter. The
request indicates that the host government is not providing a sufficient budget to cover
fuel costs. Although the mission expected another request for the next winter, the
mission had not developed a sustainability plan for the power plant that would address
the host government’s ability to run the plant and to meet its commitment to provide for
future fuel purchases.

The host government indicated that it could not provide the fuel because of such issues
as increases in fuel prices and the inability to collect on utility bills. Furthermore, the
current configuration of the northern Kabul electrical transmission system does not allow
for the use of cheaper electricity alternatives that could ultimately reduce fuel prices.
These issues are discussed below.

As for increases in fuel prices, according to the mission, the host government had based
its initial budget on diesel prices remaining at 70 cents per liter. However, as the winter
of 2008 approached and fuel prices increased to $1.25 per liter, the host government’s
fuel budget was no longer sufficient.

Complicating matters was the inability of the host government’s public utility to collect
revenue for electrical services. According to the mission, the public utility does not know
who its customers are, and corruption within the utility itself makes collection on bills
virtually impossible.

Finally, with regard to the configuration of the Kabul transmission system, the current
segregation of Kabul into two distinct power transmission sectors prevents the use of
alternative sources of electricity, thereby increasing the need for diesel fuel and
increasing overall costs. Kabul is divided into two sectors: one receives power from
hydroelectric plants as well as the diesel plants, and the other receives power imported


                                                                                        14
from Uzbekistan. According to the mission, the preferred priority for using power, from
least to most expensive, is to use the hydroelectric plants first, then imported power, and
then diesel. However, under the terms of the agreement with Uzbekistan, the power grid
in Kabul cannot be united into one grid because Uzbekistan does not trust the Kabul
power plants. Uzbekistan fears that electrical problems within a shared grid would
cause problems with its own power plants. Moreover, hydroelectric power is in greater
supply at certain times of year, when runoff from the snowmelt increases water levels at
the dams. During low-water seasons, such as summer and winter, more diesel power
must be added to the power grid, with a consequent increase in overall costs.
The mission stated that it is considering moving several projects forward, including
privatization of the utility company to assist it in collecting revenue and changes to the
transmission systems in Kabul to make them more stable. The long-term goals are to
integrate all potential sources of power and to use the most efficient and cheapest
combination at any point in time.

The mission commented that it recognizes the need for developing a comprehensive exit
strategy for the 105-megawatt plant. The strategy would integrate the mission’s future
power sector projects and the potential cost of providing fuel.

Without sufficient diesel fuel on hand at the new plant and without the ability to integrate
other sources of power into the mix, the power sector may not produce enough
electricity to meet consumer demands in Kabul. Businesses will likely suffer as a
consequence, and the anticipated economic gains and political stability resulting from a
reliable power source will not be achieved.
   Recommendation 6. We recommend that USAID/Afghanistan develop a
   comprehensive sustainability plan that includes considerations for anticipated
   fuel purchases as well as the impact and timing of future mission projects
   affecting the 105-megawatt plant.




                                                                                         15
Kajakai Project
Is Behind Schedule
 Summary. The contract called for the contractor to complete work at the Kajakai
 power plant by June 30, 2008, but the contractor is more than 1 year behind schedule.
 Delays resulted primarily from a deteriorating security situation in southern
 Afghanistan, inconsistent subcontractor performance, and transportation problems.
 As a result of the problems encountered and to keep the project moving forward, the
 mission incurred unexpected transportation costs. Furthermore, until the contractor
 identifies a new subcontractor to install the new turbine, the mission will continue to
 incur an estimated $1 million per month in site security and support costs.

According to task order 2, the contractor was expected to complete installation of a new
turbine (turbine 2) and the refurbishment of another turbine (turbine 3) by June 30, 2008,
in the Kajakai Dam hydroelectric power plant, thereby adding an additional 35
megawatts of power. In September 2005, turbine 1 was completed under a predecessor
program to the current Afghanistan Infrastructure Rehabilitation Program and began
providing 16.5 megawatts of power.

Because of the delays described below, the refurbishment of turbine 3 and the
installation of turbine 2 had not been completed at the time of the audit. Turbine 3 was
scheduled to be completed by July 2009. Moreover, no specific start or completion date
had been established for the installation of turbine 2.

The refurbishment of turbines 1 and 3 and installation of turbine 2 were originally
supposed to be completed under the Rehabilitation of Economic Facilities and Services
Program, the predecessor program mentioned above. Because of deteriorating security,
however, the contractor for that program was able to complete only the refurbishment of
turbine 1. The remaining work for turbines 2 and 3 was ultimately transferred to the new
program. As elaborated below, delays resulted primarily from deteriorating security
conditions in southern Afghanistan, inconsistent subcontractor performance, and
transportation problems.

•	 Security. In a previous audit (Audit Report No. 5-306-07-004-P, May 21, 2007), OIG
   noted that after the refurbishment of turbine 1 at Kajakai, the work site had shut
   down because of deteriorating security conditions, and the contractor’s entire staff
   had evacuated in June 2006. Since that time, the mission has succeeded in
   overcoming some of the security challenges and has been able to restart some work
   at the dam. The mission has been able to deliver some of the parts via helicopter
   and set up base camp operations. However, poor security still affects work at the
   dam—specifically, the inability to use the road leading to the dam and the
   demobilization of a subcontractor because of kidnapping threats.

   When the upgrades to the Kajakai facility were first planned in 2005, road travel in
   the area was feasible. However, the road leading to the dam is now impassable.
   The last successful use of the road to Kajakai was in May 2006 to bring in turbine
   parts as well as supplies for a base camp. Moreover, when the contractor attempted
   to reestablish the base camp in January 2007, it could not use the road to supply the
   facility. Tragically, in a February 2007 attempt to use the road to bring in supplies



                                                                                       16
   and equipment, two individuals died and another person was wounded. The mission
   and contractor attempted several plans to reopen the road, including issuing a task
   order to completely rebuild the road with local labor. These plans eventually proved
   unsuccessful, however. In October 2007 the mission finally was able to establish a
   temporary base of operations, this time with supplies delivered exclusively by air.
   The base included an advance party from the Chinese Machine-Building
   International Corporation (CMIC, a state-owned Chinese company), a subcontractor
   hired to perform the work on turbines 2 and 3.

   Permanent base operations began in January 2008 with the arrival of site support
   personnel. These were soon followed by regular helicopter support missions to keep
   the base camp resupplied. On March 28, 2008, the subcontractor at last began
   disassembling turbine 3, the turbine slated for refurbishment.

   Parts for turbine 3 and smaller parts for turbine 2 could be flown in by helicopter, but
   some parts for turbine 2 were too large—some weighing as much as 30 tons—and
   therefore an alternative delivery by road had to be explored. To transport these
   items by road, the mission began coordinating with the International Security
   Assistance Force (ISAF) as early as March 2007.                 However, the mission
   encountered several problems beyond its control. For example, given the nature of
   the mission’s request, the U.S. and British military commanders required permission
   from their respective national command centers before they could agree to move and
   escort the equipment along the road. Further complicating the matter were the
   periodic changes in military commands, when each new commander wanted to alter
   the proposed plan to move the equipment. In June 2008—14 months later—ISAF at
   last committed to moving and escorting the equipment. Another 3 months passed
   while ISAF planned the logistics for the move, such as how to transport heavy
   equipment still in storage from Kabul to Kandahar before it could be transferred to
   Kajakai. The convoy departed Kandahar on August 28, 2008, and arrived in Kajakai
   on September 2 with approximately 200 tons of equipment. Along the route the
   convoy reportedly encountered and killed approximately 200 Taliban insurgents.

   Besides the delays associated with moving the equipment to Kajakai, the mission
   also encountered the demobilization of CMIC, the Chinese subcontractor. CMIC
   personnel had received threats of kidnapping, and in October 2008, the Chinese
   Government notified the subcontractor that it must evacuate the Kajakai site. CMIC
   left the site on November 4, 2008. The contractor anticipated that CMIC would
   return in January 2009, but as of the end of audit fieldwork, CMIC had not returned
   or made any commitment of when it would return. The contractor started to refurbish
   turbine 3 itself and was making progress toward meeting the revised July 2009
   deadline. However, no replacement subcontract has been awarded for the
   installation of turbine 2, nor has a revised implementation plan been created. At the
   time of the audit, there was one potential bidder, but it was unclear whether that firm
   would be able to mobilize to the site.

•	 Inconsistent Subcontractor Performance. Another factor contributing to the delay
   was subcontractor performance in terms of providing sufficient staffing and efficiency
   of operations. When CMIC originally mobilized its staff, it sent an advance team of
   three individuals. This number eventually increased to eight. However, according to
   the mission, the subcontractor was not performing its tasks efficiently under the
   subcontract. The mission pointed to examples of inefficiency such as building


                                                                                        17
   concrete forms onsite that could have easily been procured and delivered. In
   another instance, the subcontractor planned to ship parts for turbine 3 to China for
   refurbishment, but they were sent to Kabul instead. The mission asked CMIC to
   accelerate the schedule, but CMIC refused. The mission also pointed to periods of
   inactivity, such as during the summer of 2008 when the mission made site visits to
   the dam and found workers sitting idly and watching the Beijing Olympics. CMIC has
   not billed for that period of inactivity; in fact, the last CMIC invoice received and paid
   was for May 2008.

•	 Transportation Issues. In addition to unsafe road transport, the mission has also
   experienced problems with air transport. For example, in January 2009, ISAF
   temporarily impounded the mission’s helicopter fleet at the Kandahar air base. ISAF
   also confiscated electronic equipment such as cell phones and interrogated the
   Russian pilots of the mission’s helicopter fleet. The pilots were not allowed access to
   their aircraft until they had received the proper clearances and badges. Although this
   incident was relatively minor, another transportation issue could cause greater
   challenges in the future—the transport of cement to the Kajakai project site. The
   installation of turbine 2 will require 300 tons of cement and approximately 600 tons of
   aggregate. Using a helicopter to transport these materials is prohibitively costly, and
   the road is still not safe to travel. At the time of the audit, the mission was exploring
   other options, including another military convoy; however, the specific options had
   not been incorporated into an overall implementation plan.




             Refurbished parts for turbine 3 stored in the Kajakai power plant in
          Helmand Province. (Photo by the Office of Inspector General, May 2009.)

The effects of the delays can be measured in terms of additional costs to the contract
due to increased transportation costs, incremental costs of operating the facility while
waiting for a new subcontractor to take over construction of turbine 2, and the delay in
economic benefits that were to be provided to the area residents.

At the start of the project, neither the mission nor the contractor anticipated that the road
would be shut down. If the mission had been able to use the road instead of airlifting the
parts, it could have saved approximately $6.9 million. The mission paid approximately
$7 million for airlifting 1,516 tons of parts over a 7-month period from August 2008


                                                                                          18
through March 2009.        Had the same parts been moved using local ground
transportation, the cost would have been approximately $100,000. While a heavy-lift
helicopter could be used for some of the turbine parts, the larger items, such as the
transformers, required land transportation and military escort. ISAF billed USAID
approximately $1 million for the transport of the heavy equipment.

The project cannot be completed until a new subcontractor is selected to replace the
original subcontractor, which left when its personnel were threatened. Given that a new
subcontractor has not been selected yet, the mission will have to continue providing the
costs of operating the facility until a new subcontractor comes onsite. Future estimated
security and support costs for the Kajakai facility amount to slightly over $1 million per
month and include the costs of security, support staff, and helicopter resupply.

Finally, the cost of the delays can also be measured in terms of the benefits not
delivered to Afghan citizens. The portion of the southeastern power grid into which the
existing plant will feed currently supports approximately 57,000 residential customers.
Existing power production capabilities are meeting only about 22 percent of demand.
Upon completion of the upgrades to turbine 3 and installation of turbine 2, the facility will
meet an estimated 48 percent of demand and have an economic impact of
approximately $93 million in 2010 alone, according to a study funded by USAID.

Some of the issues discussed above have been beyond the mission’s control;
nevertheless, we are making the following recommendation.

   Recommendation 7. We recommend that USAID/Afghanistan prepare a
   detailed implementation plan that documents the current status of the Kajakai
   project and explains how the mission intends to proceed with installation of
   turbine 2, including potential barriers to successful installation of the turbine and
   contingency plans to overcome these barriers.




                                                                                           19
Contractor Overbilling of
$2.1 Million Needs to Be
Recovered
 Summary. The Federal Acquisition Regulation (FAR) provides that only costs
 incurred should be claimed for reimbursement on invoices issued to the U.S.
 Government. However, the contractor billed for and received funds from the U.S.
 Government on subcontractor invoices for which the contractor had withheld payment
 to its subcontractor. The contractor had withheld payment because of a questionable
 percentage of completion amounts claimed by the subcontractor on its invoices to the
 contractor. As a result, the mission is owed $2.1 million for subcontractor costs
 (including related contractor costs plus imputed interest) that may not have been
 incurred—costs that the mission needs to recover from the contractor.

FAR 31.2, Contracts with Commercial Organizations, provides that costs claimed should
have been incurred and that costs are allocable and therefore chargeable to a contract
on the basis of relative benefits received or other equitable relationship [FAR 31.201-2
and -4]. This subpart and the contract also state that costs refunded to the U.S.
Government will include all applicable related costs, such as overhead, fixed fees, and
interest [FAR 31.201-6(a)].

However, the contractor billed for and received payment from the U.S. Government for
subcontractor invoices for which the contractor had withheld payment.            As of
May 13, 2009, the last day of fieldwork, the funds remained withheld, and the contractor
had not credited the mission for these funds.

Specifically, the contractor received funds for its invoice No. 44 on February 24, 2009,
from the mission under task order 9 (for the Kabul 105-megawatt power plant). This
invoice included two Symbion Power (subcontractor) invoices amounting to $1.9 million.
However, the contractor withheld paying this amount to Symbion Power because of the
subcontractor’s questionable percentage of completion claims contained in the invoices.
The contractor notified the subcontractor on February 28, 2009, of its intent to withhold
funds. Subsequently, on March 3, 2009, the contractor sent an official notification to
withhold funds to Symbion Power until the subcontractor had fully substantiated its
claimed percentage of completed work. The contractor furnished the mission’s
contracting officer, the technical office director, and the contracting officer’s technical
representative with copies of this notice.

As of May 13, 2009, the last day of audit fieldwork, the subcontractor had not satisfied
the contractor’s requests, and the issue remained unresolved. Furthermore, the
contractor still had not paid Symbion Power’s invoice. Therefore, since the costs were
not clearly incurred, they should not be chargeable to the contract. As of May 13, 2009,
however, the contractor still had not returned these funds to the mission, either as a cost
reduction in subsequent billings or by cash refund.

The contractor disputed, however, that it needed to refund the subcontractor costs to the
mission, even though it had withheld payment to the subcontractor. Specifically, the
contractor indicated that such withholding of payment to the subcontractor was in
accordance with the contract. The contractor cited a provision of the contract, under
section 1.12 (Prompt Payment for Construction Contracts), stating that the contractor,


                                                                                        20
after making a request for payment to the U.S. Government but before making a
payment to a subcontractor for the subcontractor’s performance covered by the payment
request, can withhold payment if it discovers that all or a portion of the payment
otherwise due such subcontractor is subject to withholding.

The contractor added that, in accordance with the requirements of the contract, it had
formally notified the subcontractor of the payment withheld and the reason it was
withheld and had furnished the mission’s contracting officer with a copy of the notice of
withholding.

Furthermore, the contractor indicated that it had not returned the funds withheld but
would pay interest to the mission for the amount withheld in accordance with the
contract. The contract states that interest on withheld payments accrues from the eighth
day after receipt of the withheld amounts from the mission until the day the
subcontractor performance deficiency is corrected or the date that any subsequent
certified application for payment is reduced. As of the last day of audit fieldwork, the
contractor had not paid any interest to the mission—nor had it repaid the withheld
amount. However, FAR 31.2 states that any cost claimed should have been incurred. In
this case, the cost would seem not to have been incurred, as the contractor had
questioned the subcontractor’s claimed costs. In addition, the contract provision cited by
the contractor to support its actions says only that the contractor can withhold payment;
it does not provide that the U.S. Government should not be paid if such funds are
withheld.

The mission indicated that even though it had received a copy of the notice that the
contractor had withheld payment to its subcontractor, the mission considered this
correspondence as an issue between the two parties. The mission claimed that the
contract lacks specificity and contains certain language that does not favor the mission.
The mission also stated that it needed a formal letter, addressed directly to it from the
contractor, providing the details and the course of action that the contractor would take
on the withheld amount. The contracting officer, who attends to a portfolio of more than
$2 billion, sent a letter on May 10, 2009, to inquire when the contractor anticipated
paying the subcontractor or otherwise crediting the mission in subsequent billings, as
well as to inquire about the current amount of interest due for the amount withheld.

As a result, project funds were in effect advanced by the mission to the contractor and
were used for purposes that did not clearly contribute to the task order 9 objective of
increasing power generation. The total amount owed to the mission by the contractor is
$2.1 million. This includes contractor costs directly associated with the funds withheld
from the subcontractor: $111,246 in general and administrative costs (overhead) and
$78,565 in fixed fees. It also includes $22,734 in imputed interest. Imputed interest was
calculated from March 4, 2009 (the eighth day after the contractor received the withheld
amount from the mission as per the contract), to May 13, 2009, at a rate of 5.625
percent per annum (the interest rate according to the prompt payment provisions of
31 U.S.C. 3901–3904).

   Recommendation 8. We recommend that USAID/Afghanistan recover at least
   $2.1 million (including interest imputed through May 13, 2009) from the
   contractor.




                                                                                       21
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final actions have been taken on 5 recommendations,
and management decisions have been reached on 3 recommendations. The status of
each of the 8 recommendations is shown below.

Final action—recommendations 2, 3, 5, 6, 8
Management decision—recommendations 1, 4, 7

For recommendation 1, the mission agreed that more training and resources are needed
to help contracting officer’s technical representatives prepare higher quality statements
of work. The mission has approved resources for this training. The target completion
date to fully close this recommendation is March 31, 2010, the date when the mission
would have provided the first training course to new contracting officer’s technical
representatives.

For recommendation 4, the mission agreed to establish written procedures to ensure
that all significant construction projects have onsite quality assurance engineers. The
Office of Acquisition and Assurance issued a notice covering the construction of vertical
structures. Subsequent notices covering the road and power sectors will be issued by
March 31, 2010, and will enable closure of the recommendation.

For recommendation 7, the mission agreed with the recommendation and will prepare a
detailed implementation plan when the security situation improves and allows work to
commence on the installation of turbine 2.

We consider that management decisions have been reached on recommendations 1, 4,
and 7. Determinations of final action will be made by the Audit Performance and
Compliance Division upon completion of the planned corrective actions.




                                                                                       22
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope

The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions, based on our audit objective. We
believe that the evidence obtained provides that reasonable basis. The objective of this
audit was to determine whether USAID/Afghanistan was achieving its main goal of
improving the availability of electrical power to Kabul and the southern provinces of
Helmand and Kandahar, through power sector activities under the Afghanistan
Infrastructure Rehabilitation Program.

The scope of the audit was limited primarily to the two task orders issued by
USAID/Afghanistan under the Afghanistan Infrastructure Rehabilitation Program (the
program), the prime contract of which was awarded to Louis Berger Inc./Black and
Veatch Special Projects Corp. Joint Venture (the contractor). One task order (task order
9) was awarded in July 2007 to build a completely new diesel-powered electricity
generating plant that would provide 105 megawatts of additional power to Kabul by April
2009. The other task order (task order 2) was awarded in January 2007 with an
estimated completion date of June 2008. It included the refurbishment of an old turbine
and the installation of a new one at an existing hydroelectric plant. These two projects
were expected to deliver a total of 140 megawatts of additional electrical power to two
strategically important areas of Afghanistan.

As of April 30, 2009, the combined ceiling price for these two projects was $305.5 million
(including $2.8 million for related activities, such as demining and building a perimeter
wall, specified under another task order). As of April 30, 2009, USAID/Afghanistan had
obligated $290.8 million and disbursed $249.6 million for these two power sector
activities.

The audit was performed in the Islamic Republic of Afghanistan from April 22 through
May 13, 2009, and covered the program’s activities implemented by the contractor
through April 30, 2009. In Kabul, fieldwork was conducted at USAID/Afghanistan, the
contractor’s office, and one of its subcontractor’s offices—Symbion Power. We also
conducted visits to the 105-megawatt power plant in Kabul and the Kajakai Dam in
Helmand Province.

We reviewed and analyzed the activities supporting the established goals for providing
more reliable power. The contractor was reporting daily and monthly on progress toward
providing more reliable power.

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan to monitor program activities. The assessment included controls
related to whether the mission had (1) conducted and documented site visits to evaluate
progress and monitor quality, (2) required and approved an implementation plan, (3)
reviewed progress reports submitted by the contractor, and (4) compared reported



                                                                                       23
progress to planned progress and the mission’s own evaluations of progress. We also
reviewed the mission’s fiscal year 2007 report in compliance with the Federal Managers’
Financial Integrity Act of 1982 (Public Law 97–255), as well as prior audit reports, for any
issues related to the audit objective.

Methodology
To answer the audit objective, we interviewed officials from USAID/Afghanistan, the
contractor, and one of the subcontractors. We reviewed and analyzed relevant
documents at both mission and contractor offices. This documentation included
performance management plans and the contract between USAID/Afghanistan and the
contractor. Furthermore, we reviewed contractor site visit and other monitoring reports,
progress reports, and financial records.

To determine the reliability of computer processed data received from the mission in
support of its obligated and disbursed amounts, we reviewed prior audits of the mission’s
financial statements and internal controls. In addition, we verified the completed energy
sector training, reported in the contractor’s semiannual report dated March 2009, to
source documents to validate data in the report.




                                                                                         24
                                                                            APPENDIX II 




MANAGEMENT COMMENTS



MEMORANDUM

TO:           Bruce N. Boyer, Regional Inspector General/Manila

FROM:         USAID/Afghanistan Mission Director, William M. Frej /s/

DATE:         October 20, 2009

SUBJECT:       Audit of USAID/Afghanistan’s Power Sector Activities under Its
Afghanistan Infrastructure Rehabilitation Program (Audit Report No. 5-306-09-00X-P)

REFERENCE: B. N. Boyer memo dated September 22, 2009

Thank you for providing the Mission the opportunity to review the subject draft audit
report and provide comments on its findings and recommendations. We appreciate the
professionalism, objectivity and hard work exhibited by the audit team in conducting the
assessment and preparing thoughtful recommendations. This memo describes the
actions that have been taken or are planned to be taken to address the
recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan require that its
training on statement-of-work preparation be provided to all new contracting
officer’s technical representatives.

The Mission agrees with this recommendation.

Actions Taken:

USAID/ Afghanistan agrees that more training and resources are needed to help
contracting officer’s technical representatives (COTRs) prepare higher quality
statements-of-work (SOWs). The Mission has approved resources for SOW training to
be provided to COTRs and is in the process of establishing the appropriate contractual
mechanisms for COTRs to receive the training. This course will provide training in the
preparation of SOWs to improve the COTRs capacity in both technical writing and the
review of SOWs. This training will be provided to all new COTRs. Based on this action,
the Mission requests RIG/Manila concurrence that a management decision has been
reached. The target completion date to fully close this recommendation is March 31,
2010, at which time, the Mission would have provided the first training course to new
COTRs.



                                                                                       25
Recommendation No 2: We recommend that USAID/Afghanistan develops
procedures, such as the use of quality control checklists, to ensure that
statements of work include such critical elements as clear deliverables with
specified due dates.

The Mission agrees with this recommendation.

Actions Taken:

In an effort to ensure that SOWs include such critical elements as deliverables and
specific delivery dates, the Contracting Officer for the Office of Infrastructure,
Engineering and Energy (OIEE) issued a Scope of Work template to all OIEE COTRs in
June 2009. Said template serves as a quality control checklist that describes the
required elements for the SOW, and provides detailed instruction for preparing each
SOW section such as the Introduction, Background, Scope of Work, Detailed Work
Requirements, Deliverables and Deliverables Schedule, Qualifications of Key Personnel,
Special Considerations and References.

The section on Deliverables and Deliverables Schedule states that “The time of delivery
or performance is an essential contract element and needs to be clearly stated. In any
given SOW, separate completion dates need to be established for separable items of
work. End products or deliverables required under the contract need to be clearly and
firmly defined here and the criteria for acceptance should be given.” The assigned
Contracting Officer reviews the adequacy of SOWs prepared by COTRs and checks
compliance against the requirements outlined in the SOW template.

Based on these actions, the Mission requests RIG/Manila concurrence that a
management decision has been reached and that the audit recommendation is closed.

Recommendation No 3: We recommend that USAID/Afghanistan establishes
procedures requiring that a labor skills assessment be performed by a contractor,
either upon award of a construction contract or upon the award of a task order
under the contract. The assessment would include, as appropriate but not limited
to, the availability of qualified local labor, vocational training needed to cultivate
local labor, and plans to coordinate with the mission to obtain appropriate visas
for non-Afghan labor.

The Mission partially agrees with this recommendation.

Actions Taken:

The Mission recognizes that there is often a shortage of available, qualified labor
required to successfully implement construction contracts in Afghanistan. Afghanistan
has a limited pool of skilled local labor and many qualified non-Afghans are not willing to
face in-country security risks. As such, both the Embassy and USAID consider capacity
building as an important objective of foreign assistance in Afghanistan. To help build
local capacity, USAID/Afghanistan contracts almost always incorporate training and
other capacity building activities for Afghan public and private organizations and
individuals.



                                                                                         26
New infrastructure projects, such as the Sheberghan gas-fired power plant, include
assessment of skilled workforce and vocational training needed. Modification #17 to the
Task Order for the Kabul power plant also requires that the Work Plan address the
personnel requirements for achieving the proposed targets. As appropriate, the Mission
will assess workforce capacity in designing infrastructure projects. To better assess the
availability of both local and international qualified staff on a contract, new Mission staff
will be hired to perform pre-award surveys of potential contractors and their proposed
personnel.

However, the Mission does not agree that a blanket procedure should be put in place
that requires contractors to perform a labor skills assessment. Meaningful labor
assessments are difficult to maintain in Afghanistan, given the fluidity of the workforce
and the high demand for skilled labor. Instead, the Mission expects that the pre-award
personnel surveys will help verify the availability of qualified staff being proposed by the
contractor.

Based on these alternative compensating actions, the Mission requests RIG/Manila
concurrence that a management decision has been reached and that the audit
recommendation is closed.

Recommendation No. 4: We recommend that USAID/Afghanistan establish written
procedures to ensure that all significant construction projects have onsite quality
assurance engineers.

The Mission agrees with this recommendation.

Actions Taken:

On November 22, 2008, the Office of Acquisition and Assistance (OAA) issued the
attached OAA Notice 09-001 requiring all offices to ensure that a Quality Assurance
Surveillance Program is included during the construction of vertical structures. To cover
the road and power construction activities, OAA will issue a similar notice that will define
the technical standards to be observed and require quality assurance monitoring during
construction.

Based on these actions, the Mission requests RIG/Manila concurrence that a
management decision has been reached. The target completion date to fully close this
recommendation is March 31, 2010, when OAA issues the notice requiring Quality
Assurance monitoring of significant construction activities in the road and power sectors.

Recommendation No 5: We recommend that the mission develop an overall
implementation plan for the Kabul power plant project that incorporates updated
construction schedules for the contractor and subcontractor, identifies delays in
critical tasks and establishes steps to keep the project on track.

The Mission agrees with this recommendation.

Ongoing Actions:

The Mission has an overall implementation plan for the Kabul power plant that targets
completion of the 100 MW generators and balance of plant by March 31, 2010.


                                                                                           27
Modification #17 of Task Order #9 puts the implementation plan into operation by: 1)
defining very specific deliverables and delivery dates for the different components of the
power plant, 2) requiring the contractor to prepare a work plan that establishes the
timeline for implementation, personnel requirements, proposed accomplishments
towards achieving results, details of collaboration with counterparts and donors,
management structure, proposed schedule, quality assurance/quality control plan and
performance monitoring plan, 3) establishing dates for the submission of design and
engineering drawings and documents, and 4) requiring the submission of specific
reports.

At the October 4, 2009 Management Meeting for the Infrastructure Rehabilitation
Program, the contractor presented its detailed construction schedule, and discussed
how progress on each of the project components is being tracked against the schedule,
based on manpower utilization. To provide an independent assessment of the progress
of work, the Mission has tasked the Human Resource and Logistical Support (HRLS)
Program to monitor work progress and to bring to the Mission’s attention possible
constraints to meeting the schedule. In addition, the COTR conducts weekly visits to the
project to review the existing construction schedule, identify delays in critical tasks and
determine next steps. The contractor provides daily reports on the project status.

Based on the actions taken, the Mission requests RIG/Manila concurrence that a
management decision has been reached and that the audit recommendation is closed.

Recommendation No. 6: We recommend that USAID/Afghanistan develop a
comprehensive sustainability plan that includes considerations for anticipated
fuel purchases as well as the impact and timing of future mission projects
affecting the 105 MW plant.

The Mission agrees with this recommendation.

Ongoing Actions:

The sustainable operation of the 100 MW Kabul power plant is of high priority to
USAID/Afghanistan. The Mission is developing the contractual means for committing
additional resources for all aspects of its operations and maintenance (O&M), including a
continuing plant betterment program to improve long-term plant performance in all areas,
and implementation of a training program to develop local skills and expertise in plant
O&M. In addition, the Mission is utilizing the HRLS contract to provide quality assurance
and technical oversight of progress at the 100 MW plant.

The Mission is aware that fuel purchases may need to be made before the onset of
winter this year and have estimated fuel requirements for the plant’s operation.
However, it is expected that the Government will continue to contribute fuel for the plant.
Since the initiation of the plant on August 5, the Government provided 50,343 liters of
fuel to operate the plant. USAID has only purchased the fuel necessary for start-up and
commissioning. To support more efficient plant operations, the Mission is increasing
available fuel storage capacity at the plant from 100,000 to 6 million liters. This will be
completed by the end of November 2009.

The Afghan Government formally established the new national electricity corporation, Da
Afghanistan Breshna Sherkat (DABS), and in early October 2009, transferred


                                                                                         28
Government assets to DABS to initiate operations. This lays the foundation for
commercialization of the country’s energy sector and improved services for the Afghan
people. In support of this effort, USAID is implementing the Kabul Electricity Directorate
(KED) Commercialization contract to improve the commercial performance of the KED
so that it can operate on a full-cost recovery basis. It is anticipated that by 2012, this
contract will result in a reduction in system losses and an increase in collections and
revenues that could be directed towards fuel purchases.

The Mission believes that the above ongoing actions constitute the necessary steps to
ensure the sustainability of the plant as intended by the recommendation. In addition,
the Mission has given full consideration to the related fuel issues, and we are confident
of the government’s commitment to provide sufficient fuel to the plant.

Based on the actions taken, the Mission requests RIG/Manila concurrence that a
management decision has been reached and that the audit recommendation is closed.

Recommendation No. 7: We recommend that USAID/Afghanistan prepare a
detailed implementation plan that documents the current status of the Kajakai
project and explains how the mission intends to proceed with installation of
turbine 2, including potential barriers to successful installation of the turbine and
contingency plans to overcome these barriers.

The Mission agrees with this recommendation.

Actions Taken:

Installation of turbine 2 will be delayed due to the current volatile and dangerous security
environment, which is preventing ground transportation of necessary equipment and
material to the site and constructing a new transmission line. Insurgents control the area
and the U.S. military expects that it will be several years before the Afghan National
Army and coalition forces can secure the 87 km route 611 from the Ring Road to
Kajakai. The Mission will continuously monitor and assess the security situation to
determine whether it is feasible to proceed with the installation of turbine 2. USAID will
inventory and secure the equipment currently stored at Kajakai. Furthermore, USAID
will provide DABS staff with the necessary equipment, materials and training to
rehabilitate and maintain the transmission line from Kajakai to Kandahar.

Until the security situation becomes sufficiently stable for work to continue on the Kajakai
turbine 2 installation, work on the project is suspended. When the security situation
improves and allows work to commence, the Mission will prepare a detailed
implementation plan.

Based on the actions taken, the suspension of work on the project, and the current
security situation, the Mission requests RIG/Manila concurrence that a management
decision has been reached and that the audit recommendation is closed.

Recommendation No. 8: We recommend that USAID/Afghanistan recovers at least
$2.1 million (including interest imputed through May 13, 2009) from the contractor.

The Mission agrees with this recommendation.


                                                                                         29
Actions Taken:
Per the attached voucher, USAID/Afghanistan has recovered the amount owed from the
contractor. This includes $2,042,680 that was billed for collection and $35,746 in accrued
interest.

Based on the action taken, the Mission requests RIG/Manila concurrence that a
management decision has been reached and that the audit recommendation is closed.




                                                                                       30
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
